February 2006
Report No. 06-007


Audit of the FDIC’s Security
Certification and Accreditation Program




             AUDIT REPORT
Federal Deposit Insurance Corporation                                                                    Office of Audits
801 17th Street NW, Washington, DC 20434                                                    Office of Inspector General




DATE:                                  February 15, 2006

MEMORANDUM TO:                         Michael E. Bartell, CIO and Director
                                       Division of Information Technology



FROM:                                  Russell A. Rau[Electronically produced version; original signed by Russell A. Rau]
                                       Assistant Inspector General for Audits

SUBJECT:                               Audit of the FDIC’s Security Certification and Accreditation
                                       Program (Report No. 06-007)


Attached is a copy of the subject report prepared by KPMG LLP under a contract with the Office
of Inspector General. Please refer to the Executive Summary for the overall audit results. The
firm’s report is presented as Part I of this document.

A summary and evaluation of your response, the response in its entirety, and the status of the
recommendation are contained in Part II of this report. The response adequately addressed the
recommendation in the report. We consider the recommendation to be resolved, but it will
remain open until we have determined that agreed-to-corrective actions have been completed and
are effective.

If you have any questions concerning the report, please contact Stephen M. Beard, Deputy
Assistant Inspector General for Audits, at (202) 416-4217, or Mark Mulholland, Director,
Systems Management and Security Audits Directorate, at (202) 416-2944. We appreciate the
courtesies extended to the audit staff.

Attachment

cc: James H. Angel, Jr., OERM
    Rack Campbell, DIT
                                                                                          Report No. 06-007
                                                                                             February 2006



                                  The FDIC’s Security Certification and Accreditation
                                  Program
                                  Results of Audit
Background and
Purpose of Audit                  The FDIC established and implemented C&A policies, procedures, and
                                  practices that were satisfactory and consistent with federal standards and
The Federal Deposit               guidelines. The FDIC continued to build its C&A program during 2005 in
Insurance Corporation (FDIC)      response to evolving National Institute of Standards and Technology
Office of Inspector General       guidance, and additional improvements were underway at the close of our
(OIG) contracted with KPMG        field work. Further, the FDIC had undertaken action to address certain
LLP (KPMG) to audit and           C&A-related matters previously identified in the OIG’s September 2005
report on the FDIC’s security
                                  security evaluation report required by FISMA.
certification and accreditation
(C&A) program. The results
of this audit support the FDIC    The FDIC can further strengthen its C&A program by:
OIG in fulfilling its
evaluation and reporting             •   enhancing system sensitivity assessment guidance to describe how
responsibilities under the               final security categorizations are determined;
Federal Information Security         •   ensuring that application security plans adequately describe how
Management Act (FISMA).                  common security controls and general support systems critical to
The Office of Management                 the security of the application are considered in the application's
and Budget requires agencies             C&A;
to certify and accredit their        •   ensuring the cost-benefit of alternative control solutions for
information systems                      reducing or eliminating vulnerabilities;
consistent with federal              •   enhancing written procedures for defining the nature and scope of
security policies, standards,            testing, managing system-level plans of action and milestones,
and guidelines. Certification            accepting risks associated with system security weaknesses, and
involves the evaluation of an
                                         issuing interim systems authorizations; and
information system’s
management, operational, and         •   establishing formal milestone reviews at key points in the C&A
technical security controls.             process to ensure that critical documentation is current, accurate,
Accreditation involves a                 and complete.
senior agency official’s
authorization of an               These program enhancements will provide FDIC management with greater
information system to             assurance that system security risks are effectively managed and that C&A
operate. The certification and    practices are consistently applied throughout the Corporation. We also
accreditation of federal          performed benchmarking with other federal agencies and included the
information systems is critical   results in this report.
to securing the government’s
operations and assets.
                                  Recommendation
The audit objective was to
determine whether the FDIC’s      KPMG recommended that the FDIC’s Chief Information Officer
security C&A policies,            strengthen the FDIC’s C&A policies, procedures, and guidelines by
procedures, and practices         considering and addressing, as appropriate, the issues described in this
were satisfactory and             report. The FDIC’s comments were responsive to the recommendation.
consistent with federal
standards and guidelines.

To view the full report, go to
www.fdicig.gov/2006reports.asp
                                    Table of Contents



Part I:

           Report by KPMG LLP
           Audit of the FDIC’s Security Certification and Accreditation Program   I-1


Part II:
           Corporation Comments and OIG Evaluation                                II-1
           Corporation Comments                                                   II-2
           Management Response to Recommendation                                  II-3
      Part I


Report by KPMG LLP
                 Audit of the FDIC’s
 Security Certification and Accreditation Program



                            Prepared for the
                 Federal Deposit Insurance Corporation
                      Office of Inspector General




Submitted by:
KPMG LLP
Risk and Advisory Services
2001 M. Street, NW
Washington, DC 20036-3389
   Audit of the FDIC’s Security Certification
          and Accreditation Program




                   Prepared by KPMG LLP




Introduction

• OIG contracted with KPMG LLP (KPMG) to audit and
  report on the FDIC’s security certification and accreditation
  (C&A) program.
• KPMG conducted its work from April through November
  2005 in accordance with generally accepted government
  auditing standards. KPMG performed certain follow-up
  procedures subsequent to field work to consider recent
  improvements in the FDIC’s C&A program.




                                I-2
Introduction (Cont.)

• Certification involves the evaluation of an information
  system’s management, operational, and technical security
  controls.
• Accreditation involves a senior agency official’s authorization
  of an information system to operate.
• By accrediting an information system, the senior agency
  official accepts the risks associated with the system’s
  operation.




Introduction (Cont.)

• Agencies are required by Office of Management and Budget
  (OMB) policy to certify and accredit their information systems
  consistent with federal standards and guidelines issued by the
  National Institute of Standards and Technology (NIST).
• In addition, federal Inspectors General are required by OMB
  policy to assess and report on agency C&A programs as part
  of their annual independent security evaluations mandated by
  the Federal Information Security Management Act (FISMA).
• The results of this audit support the OIG in fulfilling its
  evaluation and reporting responsibilities under FISMA.




                               I-3
Objective, Scope, and Methodology
• The objective was to determine whether the FDIC’s C&A
  policies, procedures, and practices were satisfactory and
  consistent with federal standards and guidelines.
• The audit focused on the application of the FDIC’s C&A
  program policies, procedures, and guidelines to major
  applications and general support systems.
• Key criteria included OMB policy and NIST standards and
  special publications (SP), as identified in Attachment III.




Objective, Scope, and Methodology (Cont.)
NIST SP 800-37 divides the C&A process into 4 phases. The
audit results are structured around these 4 phases.
              C&A Phase                              Description
                                        Review and agree upon security categorization,
                 Initiation                 risk assessment, and security planning
                                                        documentation.

                                        Determine security control effectiveness, address
               Certification           vulnerabilities in plan of action and milestone, and
                                          provide certification agent’s recommendations.

                                       Decide on authorizing a system for production by
               Accreditation             determining final risks to agency operations,
                                                    assets, or individuals.

               Continuous              Monitor controls of system placed in production
                                      and track changes that may impact system security.
               Monitoring*
            Source: KPMG analysis of NIST SP 800-37.
* KPMG did not fully evaluate the implementation of Continuous Monitoring due to the recent implementation
of the applications selected for review. The OIG plans to perform more detailed work in this area in 2006.




                                                    I-4
Objective, Scope, and Methodology (Cont.)
• Key FDIC C&A policies, procedures, and guidelines
  reviewed:
    – Circular 1310.3, Information Technology Security Risk
      Management Program
    – Circular 1360.8, Information Security Categorization
    – Division of Information Technology (DIT) Policy and Guidelines
      on Certification and Accreditation (C&A)
    – DIT’s Risk Management Methodology
• C&A packages for three major applications selected for
  detailed review:
    – New Financial Environment (NFE) Phase I
    – Legal Integrated Management System (LIMS)
    – Asset Servicing Technology Enhancement Project–Metavante




Objective, Scope, and Methodology (Cont.)
• The FDIC OIG surveyed seven federal Inspectors General
  to obtain certain information regarding their agencies’ C&A
  programs.
• The audit results build upon information we provided to
  DIT throughout the audit:
   – April 2005 CIO briefing on the NFE Phase I C&A package
   – July 2005 DIT management briefing on the FDIC’s C&A
     policies and procedures
   – September 2005 OIG FISMA report suggested improvements,
     such as (a) ensuring plans of action and milestones (POA&Ms)
     reflect all relevant security weaknesses (b) integrating processes
     for identifying mission-critical applications with processes for
     determining application availability for Federal Information
     Processing Standards (FIPS) Publication (PUB)199 purposes and
     (c) re-evaluating the 180-day duration for interim system
     authorizations.




                                    I-5
 Background
• Pursuant to its statutory responsibilities under FISMA, NIST
  continues to develop risk-based security standards and
  guidelines for securing federal information systems.
• NIST standards and guidelines are introducing significant
  changes in how federal agencies, including the FDIC, protect
  their information and systems.
• The President and OMB continue to place a high priority on
  fully certifying and accrediting federal information systems.
• The FDIC has focused its C&A efforts to date on major
  applications and general support systems. The FDIC plans to
  place priority attention on its sensitive non-major applications
  in 2006 to ensure that potential security risks associated with
  these systems are addressed.




 Overall Results
• The FDIC’s C&A policies, procedures, and practices were
  satisfactory and consistent with federal standards and guidelines.
• The FDIC continued to build its C&A program throughout 2005 in
  response to evolving NIST guidance, and additional improvements
  were underway at the close of our field work.
• The audit identified opportunities for the FDIC to further strengthen
  its C&A program policies, procedures, and guidelines. Generally,
  these opportunities existed because the FDIC’s C&A program has
  been evolving in response to emerging NIST requirements and the
  Corporation’s security management needs.
• Addressing the issues in this report will provide FDIC management
  greater assurance that system security risks are effectively managed
  and that C&A practices are consistently applied throughout the
  Corporation.




                                   I-6
FDIC C&A Program Accomplishments

• Established and implemented policies, procedures, and/or
  guidelines to:
   – Classify information systems and data
   – Assess security risks
   – Plan for security
   – Test and evaluate system security controls
   – Develop POA&Ms
   – Ensure that system owners are actively engaged in C&A
     program activities
   – Standardize accreditation decisions
   – Monitor system security controls




FDIC C&A Program Accomplishments (Cont.)

• Implemented a risk-based approach to certify and accredit
  the information systems that pose the greatest risk to the
  FDIC (i.e., major applications and general support systems).
• Achieved process efficiencies by identifying and testing
  “common” security controls that cross system boundaries,
  such as personnel and physical security controls.




                               I-7
Initiation Phase - Areas That Can Be Strengthened
• Sensitivity Assessment Questionnaire (SAQ) guidance
  should be enhanced to:
   – Describe how the initial FIPS PUB 199 categorization (which
     is based on an analysis of system data sensitivity and
     categorizes the data into high, moderate, and low impact) can
     be modified by the responses to SAQ questions in determining
     an application’s final FIPS PUB 199 categorization.
   – Address requirements for documenting management’s
     rationale for maintaining or changing initial FIPS PUB 199
     categorizations.




Initiation Phase - Areas That Can Be Strengthened
(Cont.)
• Application security plans include a description of the IT
  environment in which the application operates. However,
  guidance for preparing application security plans should be
  enhanced to require that security plans describe how (a)
  common security controls and (b) system components
  critical to the security of the application (such as database
  management and server operating systems) are considered in
  the application’s C&A.
   – Provides greater clarification of system boundaries for C&A
     purposes and greater assurance that all relevant risks are
     considered when accrediting applications.
   – Promotes efficiency because many relevant system
     components are covered in other security plans and common
     controls are covered in a separate Security Test and Evaluation
     (ST&E).




                                 I-8
  Initiation Phase - Areas That Can Be Strengthened
  (Cont.)
 • Procedures for reducing or eliminating vulnerabilities identified
   from risk assessments should be enhanced to better describe when
   the cost-benefit of alternative control solutions should be
   considered. The consideration of cost-benefits could be as simple
   as a memorandum to the file and may accompany an
   implementation plan.
 • Procedures should be enhanced to establish an independent
   milestone review before proceeding to the Certification Phase.
   Such a “check point” would provide additional assurance that
   system security categorizations, risk assessments, and security
   plans are current, accurate, and complete.
     – The Certification Agent plays a key role.
     – The level of rigor should be consistent with the FIPS PUB 199
       impact.




Certification Phase - Areas That Can Be Strengthened

  • Procedures for planning and conducting ST&E should:
     – Define the nature and scope of ST&E test case validations,
       including requirements for ensuring independence in the
       process.
     – Include requirements for gathering, reviewing, and reusing
       (where appropriate) previous assessments, audits, and
       evaluation results. Such assessments and audit work can also
       benefit Continuous Monitoring activities.




                                     I-9
 Certification Phase - Areas That Can Be Strengthened
 (Cont.)
  • Procedures for preparing and managing POA&Ms should be
    enhanced to define the Certification Agent’s role in
    providing recommendations to system owners to correct
    security control deficiencies identified during ST&E.
  • Procedures for accepting moderate or high risk associated
    with known security vulnerabilities should be enhanced to
    ensure that:
     – Relevant federal standards and guidelines are considered in
       justifying decisions to accept risk.
     – A standard format for accepting risk is used, such as DIT’s
       Memorandum of Acceptance of Risk, when circumstances
       warrant (such as when the risk is high or moderate).




Certification Phase- Areas That Can Be Strengthened
(Cont.)
  • Procedures should be enhanced to establish an independent
    milestone review by the Certification Agent before
    proceeding to the Accreditation Phase. Such a review would
    provide additional assurance that:
     – System owners fully describe corrective actions taken to close
       system-level weaknesses on POA&Ms.
     – All security weaknesses are fully addressed in system-level
       POA&Ms and included in the final certification package.
     – Justifications for accepting moderate or high risk are adequately
       documented, when circumstances warrant.
  • Procedures should be enhanced to require that certification
    letters identify those security vulnerabilities that must be
    remediated in order to achieve full accreditation when
    recommending an Interim Authority to Operate (IATO).




                                   I-10
Accreditation Phase - Areas That Can Be Strengthened

 • IATO guidance should be enhanced to:
    – Describe how terms and conditions (i.e., limitations on
      system operations) should be defined and documented.
 • As referenced in the Initiation Phase, guidance should be
   enhanced to better describe how common security controls
   and system components critical to the security of an
   application are to be considered and reported in the
   accreditation letter.




Continuous Monitoring Phase - Areas That Can Be
Strengthened

 • C&A guidelines should be enhanced to:
    – Describe how security controls will be selected and monitored
      following an IATO or full authorization to operate.
    – Describe the use of POA&Ms in the status reporting
      component of Continuous Monitoring.




                                 I-11
 Conclusion and Recommendation

  The FDIC has made significant strides in developing its
  C&A program in response to emerging NIST requirements.
  This report identifies opportunities for the FDIC to further
  strengthen its C&A policies, procedures, and guidelines.

  KPMG recommends that the Chief Information Officer
  strengthen the FDIC’s C&A policies, procedures, and
  guidelines by considering and addressing, as appropriate, the
  issues described in this report.




                                                       Attachment I
Key Observations of IG Survey
  We surveyed IGs of seven federal agencies that had a C&A
  program assessment rating of satisfactory or higher based on
  their 2004 FISMA evaluation. The results are as follows.
• Most OIGs reported that their agency had categorized all of
  their major applications and general support systems in
  accordance with FIPS PUB 199.
• Less than one half of the OIGs reported that their agency had
  identified "common” security controls. A lesser number of
  these same agencies had certified and accredited their common
  security controls.
• Most OIGs reported that their agency's system-level POA&Ms
  included all relevant IT security weaknesses, including OIG-
  and GAO-identified weaknesses.




                               I-12
                                                          Attachment I
Key Observations of IG Survey (Cont.)
• Some IGs reported that their agencies used the Automated
  Security Self-Evaluation and Remediation Tracking tool to
  centrally manage the remediation of security weaknesses.
• Almost all IGs reported that their agencies had certified and
  accredited their general support systems before certifying and
  accrediting any overlaying applications. One OIG
  recommended that the agency identify risks associated with
  unaccredited general support systems in major application
  C&A packages.
• Almost all IGs reported that their agencies had developed
  IATO policies or procedures.
• Some IGs reported that their agencies' C&A programs
  included a quality assurance component (a GAO-
  recommended practice).




                                                        Attachment II
Prior Audits, Performance Measures, and Fraud
• Relevant reports and correspondence include:
   – September 2005 OIG report entitled, Independent Evaluation of the
     FDIC’s Information Security Program-2005 (Report No. 05-040)
   – September 2005 OIG report entitled, Responses to Security-Related
     Questions Raised in OMB’s Fiscal Year 2005 Reporting
     Instructions for FISMA and Agency Privacy Management (Report
     No. 05-034)
   – OIG Memorandum entitled, FDIC’s Information Security Program,
     dated November 8, 2005




                                I-13
                                                               Attachment II
Prior Audits, Performance Measures, and Fraud
(Cont.)
• KPMG did not evaluate the FDIC’s C&A program
  performance measures as part of the audit. Such procedures
  were performed as part of the OIG’s annual information
  security evaluation required by FISMA.
• KPMG did not develop specific audit procedures to detect
  fraud and illegal acts because they were not considered
  material to the audit objective. However, throughout the audit,
  KPMG was sensitive to the potential of fraud, waste, abuse,
  and mismanagement.




                                                               Attachment III
Laws, Regulations, Standards, and Guidelines
  Key statutes, regulations, standards, and guidelines:
   – Federal Information Security Management Act of 2002
   – OMB Circular No. A-130, Management of Federal Information Resources
     Appendix III, Security of Federal Automated Information Resources
   – OMB Memorandum M-02-1, Guidance for Preparing and Submitting Security
     Plans of Action and Milestones
   – NIST SP 800-37, Guide for the Security Certification and Accreditation of
     Federal Information Systems
   – NIST FIPS PUB 199, Standards for Security Categorization of Federal
     Information and Information Systems
   – NIST SP 800-60, Guide for Mapping Types of Information and Information
     Systems to Security Categories
   – NIST SP 800-53, Recommended Security Controls for Federal Information
     Systems




                                    I-14
                                                                 Attachment IV
Acronyms
Acronym    Definition
C&A        Certification and Accreditation
CIO        Chief Information Officer
DIT        Division of Information Technology
FDIC       Federal Deposit Insurance Corporation
FIPS PUB   Federal Information Processing Standard Publication
FISMA      Federal Information Security Management Act
GAO        Government Accountability Office
IATO       Interim Authorization to Operate
LIMS       Legal Integrated Management System
NFE        New Financial Environment
NIST       National Institute of Standards and Technology
OIG        Office of Inspector General
OMB        Office of Management and Budget
POA&M      Plan of Action and Milestones
SAQ        Sensitivity Assessment Questionnaire
SP         Special Publication
ST&E       Security Test and Evaluation




                                 I-15
                                                                                                                Attachment V
Glossary
           Term                                                            Definition

Accreditation               Official management decision given by a senior agency official to authorize operation of an
                            information system and to explicitly accept the risk to agency operations, agency assets, or individuals
                            based on the implementation of an agreed-upon set of security controls.

Accreditation Package       The evidence provided to the authorizing official to be used in the security accreditation decision
                            process. Evidence includes, but is not limited to: (a) the system security plan; (b) the assessment
                            results form the security certification; and (c) the plan of action and milestones.

Authorizing Official        Official with the authority to formally assume responsibility for operating an information system at an
                            acceptable level of risk to agency operations (including mission, functions, image, or reputation);
                            agency assets; or individuals.

Certification Agent         The individual, group, or organization responsible for conducting a security certification.

Certification               Comprehensive assessment of the management, technical, and operational security controls in an
                            information system, made in support of security accreditation to determine the extent to which controls
                            are implemented correctly, operating as intended, and producing the desired outcome with respect to
                            meeting the security requirements of the system.

Chief Information Officer   Agency official responsible for:
                            • Providing advice and other assistance to the head of the executive agency and other senior
                               management personnel to ensure that agency information technology is acquired and information
                               resources are managed in a manner that is consistent with laws, Executive Orders, directives,
                               policies, regulations, and priorities established by the head of the agency.
                            • Developing, maintaining, and facilitating the implementation of a sound and integrated information
                               technology architecture for the agency.
                            • Promoting the effective and efficient design and operations of all major information resources
                               management processes for the agency, including improvements to work processes of the agency.




                                                              I-16
                                                                                                                  Attachment V
Glossary (Cont.)
           Term                                                             Definition

Common Security Control    Security control that can be applied to one or more agency information systems and has the following
                           properties: (a) the development, implementation, and assessment of the control can be assigned to a
                           responsible official or organizational element (other than the information system owner); and (b) the
                           results from the assessment of the control can be used to support the security C&A processes of any
                           agency information system where that control has been applied.

Federal Information        An information system used or operated by an executive agency, a contractor of an executive agency,
System                     or another organization on behalf of an executive agency.

General Support System     An interconnected set of information resources under the same direct management control. This
                           system normally includes hardware, software, information, data, applications, communications, and
                           people.

Information Security       The protection of information and information systems from unauthorized access, use, disclosure,
                           disruption, modification, or destruction in order to provide confidentiality, integrity, and availability.

Information System         A discrete set of information resources organized for the collection, processing, maintenance, use,
                           sharing, dissemination, or disposition of information.

Information System Owner   Official responsible for the overall procurement, development, integration, modification, or operation
                           and maintenance of an information system.

Information Systems        Individual responsible to the senior agency information security officer, authorizing official, or
Manager                    information systems owner or ensuring the appropriate operational security posture is maintained for
                           an information system or program.

Major Application          An application that requires special attention due to the risk and magnitude of the harm that would
                           result in the loss, misuse, or unauthorized access to or modification of information in the application.




                                                               I-17
                                                                                                          Attachment V
Glossary (Cont.)
           Term                                                        Definition

Management Controls    The security controls (i.e., safeguards or countermeasures) for an information system that focus on the
                       management of risk and the management of information system security.

NIST                   National Institute of Standards and Technology – a government agency charged with establishing
                       guidance for IT security.

Operational Controls   The security controls (i.e., safeguards or countermeasures) for an information system that primarily are
                       implemented and executed by people (as opposed to systems).

Plan of Action and     A document that identifies tasks needing to be accomplished. It details resources required to
Milestones             accomplish the elements of the plan, any milestones in meeting the tasks, and scheduled completion
                       dates for the milestones.

Potential Impact       Low: The loss of confidentiality, integrity, or availability could be expected to have a limited adverse
                       effect on organizational operations, organizational assets, or individuals.
                       Moderate: The loss of confidentiality, integrity, or availability could be expected to have a serious
                       adverse effect on organizational operations, organizational assets, or individuals.
                       High: The loss of confidentiality, integrity, or availability could be expected to have a severe or
                       catastrophic adverse effect on organizational operations, organizational assets, or individuals.



Risk                   The level of impact on agency operations (including mission, functions, image, or reputation); agency
                       assets; or indviudal resulting from the operation of an information system given the potential impact of
                       a threat and the likelihood of that threat occurring.

Risk Assessment        The process of identifying risks to agency operations (including mission, functions, image, or
                       reputation); agency assets; or individuals by determining the probability of occurrence, the resulting
                       impact, and additional security controls that would mitigate this impact. A risk assessment is part risk
                       management, synonymous with risk analysis, and incorporates threat and vulnerabilty analysis.




                                                         I-18
                                                                                                                  Attachment V
Glossary (Cont.)
           Term                                                             Definition

Risk Management             The process of managing risks to agency operations (including mission, functions, image, or
                            reputation); agency assets; or individuals resulting form the operation of an information system. IT
                            includes risk assessment; cost-benefit analysis; the selection, implementation, and assessment of
                            security controls; and the formal authorization to operate that system. The process considers
                            effectiveness, efficiency, and constraints due to laws, directives, policies, or regulations.

Security Category           The characterization of information or an information system based on an assessment of potential
                            impact that a loss of confidentiality, integrity, or availability of such information or information system
                            would have on organizational operations, organization assets, or individuals.

Security Controls           The management, operational, and technical controls (i.e., safeguards or countermeasures)
                            prescribed for an information system to protect the confidentiality, integrity, and availability of the
                            system and its information.

Senior Agency Information   Official responsible for carrying out the Chief Information Officer responsibilities under FISMA and
Security Officer            serving as the Chief Information Officer's primary liaison to the agency’s authorizing officials,
                            information system owners, and information system security officers.

Sensitive Non-Major         An application that processes a lesser degree of sensitive information than a major application but
Application                 still requires some extra attention to security risks and controls.

System Security Plan        Formal document that provides an overview of the security requirement for the information system
                            and describes the security controls in place or planned for meeting those requirements.

Technical Controls          The security controls (i.e., safeguards or countermeasures) for an information system that are
                            primarily implemented and executed by the information system through mechanisms contained in the
                            hardware, software, or firmware components of the system.

Vulnerability               Weakness in an information system, system security procedures, internal controls, or implementation
                            that could be exploited or triggered.




                                                                I-19
                Part II



Corporation Comments and OIG Evaluation
CORPORATION COMMENTS AND OIG EVALUATION

The report contains one recommendation for the CIO and Director of DIT. The CIO provided a
written response to the draft report on February 1, 2006. This response is presented in its
entirety on page II-2. DIT management concurred with the recommendation, which we consider
resolved, but it will remain open for reporting purposes until we have determined that agreed-to
corrective actions have been completed and are effective. DIT’s response to the
recommendation is summarized below, along with our evaluation of the response.

Recommendation 1: KPMG recommends that the Chief Information Officer strengthen the
FDIC’s C&A policies, procedures, and guidelines by considering and addressing, as appropriate,
the issues described in this report.

DIT Response: DIT concurs with the recommendation. DIT has worked with the OIG audit
team to begin assessing the observations made in the draft report. DIT has drafted a matrix that
documents DIT’s consideration of the observations. DIT reviewed the status of this effort with
the OIG and Office of Enterprise Risk Management on January 18, 2006. It was agreed that the
provision of the completed matrix would satisfy the recommendation and that the OIG would
review DIT’s actions regarding these issues in the 2006 Federal Information Security
Management Act evaluation. DIT will complete the matrix and provide it to the OIG by April 5,
2006.

OIG Evaluation of Response: DIT’s consideration of the observations and resulting matrix
satisfies the intent of the recommendation. We consider the recommendation resolved, but it will
remain open until we have determined that each observation was considered and addressed in the
matrix.




                                              II-1
                                                   MANAGEMENT RESPONSE TO RECOMMENDATION
       This table presents the management response on the recommendation in our report and the status of the recommendation as of the date
       of report issuance.
                                                                                                                                                                      Open
            Rec.                                                                                                  Expected           Monetary        Resolved:a        or
           Number                        Corrective Action: Taken or Planned/Status                            Completion Date       Benefits        Yes or No       Closedb
             1        DIT has begun assessing the observations made in the draft report. DIT will provide a
                      matrix that documents DIT’s consideration of the observations.                                4/5/06              N/A             Yes              Open


       a
            Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                       (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                       (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                           as management provides an amount.
       b
            Once the OIG determines that agreed-to-corrective actions have been completed and are effective, the recommendation can be closed.
II-3
